Record Press Inc., 229 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 619-4848• Fax No. (212) 608-3141
STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK
Haward Daniels being duly

AFFIDAVIT DF SERVICE

85170

deposes and says that deponent is

party ta the

and is aver 18 years

age.

That an the 16th day November 2020 deponent served 3 copies the within
BRIEF FDR AMICI CURIAE ILYA SDMIN AND SANFORD LEVINSON IN SUPPORT OF APPELLEES
the attorneys at the addresses
and by the
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Jeffrey 8. Wall
United States Department Justice
850 Pennsylvania Avenue, NW
Washington, District Columbia 20530
(202) 514-2217

Barbara Dale
General
Office the Attorney General
28 Liberty Street
New Yark, NY IDDD5-l4DD

Attorneys for Appellants

Dale E. Ha
American Civil Liberties
125
Street
Director, Voting Rights Project
New Yark, NY ID004
212-548-2683
Attorneys for Appellees

I, Haward Daniels. declare under penalty

executed on November IS.

perjury under the laws the United States America that the
pursuant to Supreme Cour Rule 2S.5(c). All ms requted to be served.
Haward Daniels

Sworn to me this

November 16, 2020
Alessandra Kane
Notary Public, State New Yark
Na. DIKA634052I
Uualified in Richmond County
Expires April 18, 2024

Notary Public

Case Name: Trump v. NY
Docket/Case No. 20-366

is true and correct,
e\served.

